Case 4:19-cr-00167 Document 19 Filed on 06/27/19 in TXSD Page 1 of 4
United States District Court
Southern District of Texas

ENTERED
IN THE UNITED STATES DISTRICT COURT
FOR THE SOUTHERN DISTRICT OF TEXAS
HOUSTON DIVISION

UNITED STATES OF AMERICA,

§
§
§
§
§
§
§
§

v.
AGAPITO JARAMILLO VASQUEZ,
Defendant.

June 27, 2019
David J. Bradley, Clerk

CASE NO. 4:19-CR-00167

ORDER
Pending before the Court is Defendant’s Motion to Dismiss the Indictment. (Instrument
No. 18). The Government has not filed a Response.
Defendant Agapito Jaramillo Vasquez contends that the Court should dismiss his
Indictment because the Notice to Appear on his 2013 removal order failed to state the time and
place of the hearing. (Instrument No. 18). Defendant asserts that the omission of the time and
place on his Notice to Appear (1) divested the immigration court of subject matter jurisdiction
over his removal proceedings rendering the removal order void; and (2) the underlying removal
order did not comport with due process. Id.
Defendant’s Motion to Dismiss, which identifies defects in his Notice to Appear, is a
collateral attack on the immigration court’s removal order. To collaterally attack the validity of
the removal order, Defendant must demonstrate: (1) that he exhausted any administrative
remedies that may have been available to seek relief against the order; (2) the deportation
proceedings at which the order was issued improperly deprived him of the opportunity for
judicial review; and (3) the entry of the order was fundamentally unfair. 8 U.S.C. § 1326(d); see
also United States v. Lopez-Vasquez, 227 F.3d 476, 483-84, 483 n.13 (5th Cir. 2000).

63

Appendix L
20-20013.73

Case 4:19-cr-00167 Document 19 Filed on 06/27/19 in TXSD Page 2 of 4

Defendant contends that he does not need to show exhaustion of administrative remedies
because the immigration court never had subject matter jurisdiction. (Instrument No. 18 at 7-9).
In the context of removal or deportation proceedings, two statutory provisions are
relevant. 8 U.S.C. §§ 1229a and 1229. Section 1229a directs immigration judges to conduct
proceedings for deciding the inadmissibility or deportability of an alien in the United States. See
8 U.S.C. § 1229a(a)-(c) (directing that “immigration judge[s] shall conduct proceedings for
deciding the inadmissibility or deportability of an alien” and stating that unless otherwise
specified “a proceeding under this section shall be the sole and exclusive procedure for
determining whether an alien may be admitted to the United States or, if the alien has been so
admitted, removed from the United States.”). Section 1229 is entitled “Initiation of Removal
Proceedings.” 8 U.S.C. § 1229. Section 1229(a)(1) requires that, in removal proceedings
conducted pursuant to § 1229a, the alien shall be given a Notice to Appear that provides the time
and place of the removal proceedings. § 1229(a)(1)(G)(i).
Section 1229 and 1229a do not provide, however, when and how subject matter
jurisdiction over a removal proceeding vests in an immigration court. See United States v.
Calderon-Avalos, EP-18-CR-3156-PRM, 2019 WL 919210, at *7 (W.D. Tex. Feb. 25, 2019)
(“Congress did not provide what is required for jurisdiction to vest in the Immigration Court but
instead granted the authority to determine any such jurisdictional requirements to the Attorney
General.”). Separate federal regulations promulgated by the Attorney General dictate when and
how an immigration court gains subject matter jurisdiction. (Instrument No. 18 at 4); See 8
U.S.C. § 1103(g). Those regulations specify that “[j]urisdiction vests, and proceedings before an
Immigration Judge commence, when a charging document is filed with the Immigration Court by
the Service.” 8 C.F.R. § 1003.14(a). While federal regulations provide that a “charging

64
20-20013.74

Case 4:19-cr-00167 Document 19 Filed on 06/27/19 in TXSD Page 3 of 4

document” may include a Notice to Appear, the regulatory provisions that govern notices to
appear do not require the time and place provisions Defendant contends make his removal order
defective. See 8 C.F.R. § 1003.15 (listing the contents of the Notice to Appear and noting that
“[f]ailure to provide any of these items shall not be construed as affording the alien any
substantive or procedural rights.”). Accordingly, the Court finds that the omission of the time
and place of the removal hearing on Defendant’s Notice to Appear did not extinguish the
immigration court’s subject matter jurisdiction.
Defendant has also failed to show that relief under 8 U.S.C. § 1326(d) is warranted.
Defendant has not shown that he exhausted any administrative remedies. Additionally, to
collaterally attack his removal order, Defendant must show that the entry of the deportation order
was fundamentally unfair. 8 U.S.C. § 1326(d)(3). The fundamental unfairness prong requires a
defendant to show “actual prejudice.” United States v. Benitez-Villafuerte, 186 F.3d 651, 658
(5th Cir. 1999). Defendant contends in a conclusory fashion that he was not legally deportable
because the immigration court had no jurisdiction over him. (Instrument No. 18 at 12).
Defendant does not contest the merits of the immigration court’s removal order. There is no
indication in the record that had the Notice to Appear included the hearing’s place and time, the
proceeding could have yielded a different result. “[I]f the defendant was legally deportable and,
despite the INS [Immigration and Naturalization Service]’s errors, the proceeding could not have
yielded a different result, the deportation is valid for purposes of section 1326.” BenitezVillafuerte, 186 F.3d at 659 (internal quotations omitted). Accordingly, the Court finds that
Defendant has failed to demonstrate that he is entitled to relief pursuant to 8 U.S.C. § 1326(d).

65
20-20013.75

Case 4:19-cr-00167 Document 19 Filed on 06/27/19 in TXSD Page 4 of 4

Accordingly, IT IS HEREBY ORDERED that Defendant’s Motion to Dismiss the
Indictment is DENIED. (Instrument No. 18).
The Clerk shall enter this Order and provide a copy to all parties.
27th day of June, 2019, at Houston, Texas.
SIGNED on this the ____

____________________________________
VANESSA D. GILMORE
UNITED STATES DISTRICT JUDGE

66
20-20013.76

